U.S. DEPARTMENT OF LABOR

 Longshore and Harbor Workers’
 Compensation Act Special Fund

FINANCIAL STATEMENT AUDIT

       September 30, 2003




                            U.S. Department of Labor
                            Office of Inspector General
                            Report Number: 22-04-007-04-432
                            Date Issued: March 30, 2004
                                                  TABLE OF CONTENTS & ACRONYMS


                                           CONTENTS

                                                                             PAGE

ACRONYMS                                                                        ii

ASSISTANT INSPECTOR GENERAL’S REPORT                                           1.1

LONGSHORE AND HARBOR WORKERS' COMPENSATION ACT
SPECIAL FUND FINANCIAL STATEMENTS                                              2.1

 MANAGEMENT DISCUSSION AND ANALYSIS                                            2.4

   Mission and Organizational Structure                                        2.5

   Financial Highlights                                                        2.5

   Performance Goals and Results                                               2.5

   Limitations of the Financial Statements                                     2.6

 PRINCIPAL FINANCIAL STATEMENTS                                                2.7

   Balance Sheets                                                              2.8

   Statements of Net Cost                                                      2.9

   Statements of Changes in Net Position                                      2.10

   Statements of Budgetary Resources                                          2.11

   Statements of Financing                                                    2.12

   Notes to Financial Statements                                              2.13




OIG Report No. 22-04-007-04-432                                     Page i
                                                      TABLE OF CONTENTS & ACRONYMS


                                        ACRONYMS




AUP           Agreed Upon Procedures

CFO           Chief Financial Officer

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

ESA           Employment Standards Administration

FASAB         Federal Accounting Standards Advisory Board

FMFIA         Federal Managers' Financial Integrity Act

FY            Fiscal Year

OMB           Office of Management and Budget

OWCP          Office of Workers' Compensation Programs




OIG Report No. 22-04-007-04-432                                         Page ii
U.S. Department of Labor      Office of Inspector General
                              Washington, D.C. 20210



                       ASSISTANT INSPECTOR GENERAL’S REPORT

MS. VICTORIA LIPNIC                                    We conducted our audit in accordance with
ASSISTANT SECRETARY FOR                                auditing standards generally accepted in the
EMPLOYMENT STANDARDS                                   United States of America; the standards
U.S. DEPARTMENT OF LABOR                               applicable to financial statements contained
                                                       in Government Auditing Standards, issued
The Chief Financial Officers Act of 1990               by the Comptroller General of the United
(CFO Act) requires agencies to report                  States; and Office of Management and
annually to Congress on their financial                Budget (OMB) Bulletin No. 01-02, Audit
status and any other information needed                Requirements for Federal Financial
to fairly present the agencies’ financial              Statements.
position and results of operations. The
Longshore and Harbor Workers’                          These standards require that we plan and
Compensation Act Special Fund (the                     perform the audit to obtain reasonable
Fund) is included in the United States                 assurance about whether the financial
Department of Labor (DOL) annual                       statements are free of material
financial statements issued to meet the                misstatements. An audit includes
CFO Act reporting requirements.                        examining, on a test basis, evidence
                                                       supporting the amounts and disclosures in
The objectives of our audit are to express             the financial statements. An audit also
an opinion on the fair presentation of the             includes assessing the accounting
Fund’s Fiscal Year 2003 and 2002                       principles used and significant estimates
financial statements, obtain an                        made by management, as well as evaluating
understanding of the Fund’s internal                   the overall financial statement presentation.
control, and test compliance with laws and              We believe that our audit provides a
regulations that could have a material                 reasonable basis for our opinion.
effect on the financial statements.
                                                       OPINION ON
We have audited the balance sheet of the               FINANCIAL STATEMENTS
Fund as of September 30, 2003 and 2002,
and the statements of net cost, changes in             In our opinion, the financial statements
net position, budgetary resources, and                 referred to above present fairly, in all
financing for the years then ended.                    material respects, in conformity with
                                                       accounting principles generally accepted in
These financial statements are the                     the United States of America:
responsibility of the Fund’s management.
Our responsibility is to express an opinion            • the assets, liabilities, and net position of
on these financial statements based on our             the Fund as of September 30, 2003 and
audit.                                                 2002; and

OIG Report No. 22-04-007-04-432                                                          Page 1.1
                                      ASSISTANT INSPECTOR GENERAL’S REPORT
                                              to achieve the objectives described in OMB
• the net cost, changes in net position,      Bulletin No. 01-02. We did not test all
budgetary resources, and reconciliation of    internal controls relevant to operating
net cost to budgetary resources for the       objectives as broadly defined by the
years ended September 30, 2003 and 2002.      Federal Managers’ Financial Integrity Act
                                              of 1982 (FMFIA), such as those controls
OTHER ACCOMPANYING                            relevant to ensuring efficient operations.
INFORMATION                                   The objective of our audit was not to
                                              provide assurance on internal control.
Our audit was conducted for the purpose       Consequently, we do not provide an
of forming an opinion on the Fund’s           opinion on internal control.
principal financial statements taken as a
whole. The information contained in the       Our consideration of the internal control
Management Discussion and Analysis            over financial reporting would not
section of the Fund’s annual financial        necessarily disclose all matters in the
statements is not a required part of the      internal control over financial reporting that
principal financial statements. The           might be reportable conditions. Under
information is required by the Federal        standards issued by the American Institute
Accounting Standards Advisory Board           of Certified Public Accountants, reportable
(FASAB).                                      conditions are matters coming to our
                                              attention relating to significant deficiencies
We have applied certain limited               in the design or operation of the internal
procedures, which consisted principally of    control that, in our judgment, could
inquiries of management regarding the         adversely affect the agency’s ability to
methods of measurement and presentation       record, process, summarize, and report
of the information. However, we did not       financial data consistent with the assertions
audit the information and express no          by management in the financial statements.
opinion on it.                                Material weaknesses are reportable
                                              conditions in which the design or operation
REPORT ON                                     of one or more of the internal control
INTERNAL CONTROL                              components does not reduce to a relatively
                                              low level the risk that misstatements in
In planning and performing our audit, we      amounts that would be material in relation
considered the Fund’s internal control        to the financial statements being audited
over financial reporting by obtaining an      may occur and not be detected within a
understanding of the Fund’s internal          timely period by employees in the normal
control, determined whether these internal    course of performing their assigned
controls had been placed in operation,        functions. Because of inherent limitations
assessed control risk, and performed tests    in internal controls, misstatements, losses,
of controls in order to determine our         or noncompliance may nevertheless occur
auditing procedures for the purpose of        and not be detected. However, we noted no
expressing our opinion on the financial       matters involving the internal control and
statements. We limited our internal           its operations that we consider to be
control testing to those controls necessary   material weaknesses as defined above.

OIG Report No. 22-04-007-04-432                                                 Page 1.2
                                        ASSISTANT INSPECTOR GENERAL’S REPORT
                                                The results of our tests of compliance with
With respect to internal control related to     laws and regulations described in the
performance measures included in the            preceding paragraph, disclosed no instances
Management Discussion and Analysis, we          of noncompliance that are required to be
obtained an understanding of the design of      reported under Government Auditing
significant internal controls relating to the   Standards or OMB Bulletin No. 01-02.
existence and completeness assertions as
required by OMB Bulletin No. 01-02. Our         Providing an opinion on compliance with
procedures were not designed to provide         certain provisions of laws and regulations
assurance on internal control over reported     was not an objective of our audit and,
performance measures, and, accordingly,         accordingly, we do not express such an
we do not provide an opinion on such            opinion.
controls.
                                                                ______
We noted other matters involving the
internal control and its operations that will   This report is intended solely for the
be reported to the management of DOL in         information of the Longshore and Harbor
a separate letter.                              Workers’ Compensation Act Special Fund
                                                management, U. S. Department of Labor
REPORT ON COMPLIANCE                            management, the Office of Management
WITH LAWS AND REGULATIONS                       and Budget, and the Congress. This report
                                                is not intended to be and should not be used
The management of the Fund is                   by anyone other than these specified
responsible for complying with laws and         parties.
regulations applicable to the Fund. As
part of obtaining reasonable assurance
about whether the Fund’s financial
statements are free of material                 ELLIOT P. LEWIS
misstatement, we performed tests of its         Assistant Inspector General for Audit
compliance with certain provisions of laws
and regulations, noncompliance with             March 5, 2004
which could have a direct and material
effect on the determination of financial
statement amounts and certain other laws
and regulations specified in OMB Bulletin
No.
01-02.

We limited our tests of compliance to
these provisions and we did not test
compliance with all laws and regulations
applicable to the Fund.



OIG Report No. 22-04-007-04-432                                                 Page 1.3
                                           ANNUAL FINANCIAL STATEMENTS




                   U. S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION




   LONGSHORE AND HARBOR WORKERS’
    COMPENSATION ACT SPECIAL FUND
        FINANCIAL STATEMENTS
      SEPTEMBER 30, 2003 AND 2002




                                  March 2004


              Office of Management, Administration and Planning
                        Division of Financial Management

OIG Report No. 22-04-007-04-432                                   Page 2.1
                                                           ANNUAL FINANCIAL STATEMENTS

                                  LONGSHORE AND HARBOR WORKERS'
                                   COMPENSATION ACT SPECIAL FUND

                                           TABLE OF CONTENTS




                                                                                       PAGE

ACRONYMS                                                                                         ii

MANAGEMENT DISCUSSION AND ANALYSIS

 Mission and Organizational Structure                                                   I    -   1
 Financial Highlights                                                                   I    -   1
 Performance Goals and Results                                                          I    -   1
 Limitations of the Financial Statements                                                I    -   2

FINANCIAL STATEMENTS

 Balance Sheets                                                                        II    -   1
 Statements of Net Cost                                                                II    -   2
 Statements of Changes in Net Position                                                 II    -   3
 Statements of Budgetary Resources                                                     II    -   4
 Statements of Financing                                                               II    -   5

NOTES TO FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                                   III   -   1
 Note 2 – Funds with U.S. Treasury                                                     III   -   3
 Note 3 - Investments                                                                  III   -   3
 Note 4 - Accounts Receivable, Net                                                     III   -   4
 Note 5 - Other Liabilities                                                            III   -   5
 Note 6 - Related Party Transactions                                                   III   -   5
 Note 7 – Reconciliation to the Budget                                                 III   -   5
 Note 8 – Contingencies and Commitments                                                III   -   6




                                                       i

OIG Report No. 22-04-007-04-432                                             Page 2.2
                                                               ANNUAL FINANCIAL STATEMENTS

                               LONGSHORE AND HARBOR WORKERS'
                                COMPENSATION ACT SPECIAL FUND

                                                ACRONYMS




AUP           Agreed Upon Procedures

CFO           Chief Financial Officer

DCCA          District of Columbia Workmen’s Compensation Act Special Fund

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

ESA           Employment Standards Administration

FASAB         Federal Accounting Standards Advisory Board

FMFIA         Federal Managers' Financial Integrity Act

FUND          Longshore and Harbor Workers' Compensation Act Special Fund

FY            Fiscal Year

JFMIP         Joint Financial Management Improvement Project

LCMS          Longshore Case Management System

LHWCP         Longshore and Harbor Workers’ Compensation Program

OCFO          Office of the Chief Financial Officer

OMB           Office of Management and Budget

OWCP          Office of Workers' Compensation Programs




                                                      ii

OIG Report No. 22-04-007-04-432                                                 Page 2.3
                                                  ANNUAL FINANCIAL STATEMENTS




                          U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION


                           Longshore and Harbor Workers’
                           Compensation Act Special Fund




                                   SECTION I

                MANAGEMENT DISCUSSION
                                  AND ANALYSIS




                                     Fiscal Year 2003
                                   Financial Statements


OIG Report No. 22-04-007-04-432                                    Page 2.4
                                                                    ANNUAL FINANCIAL STATEMENTS

                                   LONGSHORE AND HARBOR WORKERS’
                                    COMPENSATION ACT SPECIAL FUND

                                MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2003


MISSION AND ORGANIZATIONAL STRUCTURE

The Longshore and Harbor Workers’ program mission is to effectively administer a program of compensation and
medical benefits to covered workers who are injured on the job or suffer from occupational disease.

The reporting entity is the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). Organizationally the
Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation (DLHWC) has direct
responsibility for administration of the Fund. The Fund supports the program mission by providing compensation, and in
certain cases, medical care payments to employees disabled from injuries which occurred on the navigable waters of the
United States, or in adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also extends
benefits to dependents if any injury resulted in the employee's death.

Administrative services for operating the Fund are provided by the ESA through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying statements.

Additionally, the Longshore and Harbor Workers' Compensation Act Section 10(h) provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

FINANCIAL HIGHLIGHTS

The majority of the revenue of the Fund is generated through annual recurring assessments paid by self-insured
employers and insurance carriers and totaled $127,660,869 in FY 2003. This compares with assessment revenue of
$134,081,066 for FY 2002. During FY 2003 and 2002, substantial recoveries were made for the Fund due to activities
involving the application of Agreed Upon Procedures (AUP) on Forms LS-513, Report of Payments (used in the
calculation of the annual assessment), and negotiation/collection of past due assessments. Equally important, the AUP
activities have uncovered common reporting errors and other record-keeping mistakes which, when discovered, have
been eliminated. The on-going AUP program recovered $862,943 in FY 2003 and $984,000 in FY 2002 for the Fund.
These recoveries have and will continue to reduce carrier assessments.

Investment income for the Fund was $511,065 for FY 2003 compared to $854,090 for FY 2002. The average interest
rate earned during FY 2003 was 1.23 percent compared to 2.02 percent for FY 2002. The Fund’s costs remained
relatively stable compared to FY 2002; $132,352,443 for FY 2003 compared to $129,139,558 for FY 2002.


PERFORMANCE GOALS AND RESULTS

The DLHWC supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC program supports Outcome
Goal 2.2 –Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits are
protected and that employers administer benefit programs in an appropriate way. The Longshore program assists in
meeting this outcome goal. In order to accomplish this outcome Longshore has established the following
performance goal for FY 2003:

                                                         I-1

OIG Report No. 22-04-007-04-432                                                                      Page 2.5
                                                                       ANNUAL FINANCIAL STATEMENTS

                                     LONGSHORE AND HARBOR WORKERS’
                                      COMPENSATION ACT SPECIAL FUND

                                  MANAGEMENT DISCUSSION AND ANALYSIS
                                          SEPTEMBER 30, 2003


PERFORMANCE GOALS AND RESULTS - Continued

         Reduce by two percent over the FY 2002 baseline the average time required to resolve disputed issues in
         Longshore and Harbor Worker’s Compensation Program contested cases.

The target was reached. For FY 2003, the average number of days to resolve disputed issues was 266 days, thirteen days
below the target of 279 days. This indicator assesses the speedy resolution of disputed issues, enabling earlier benefit
delivery and reducing litigation costs. ESA revised last year’s baseline and reset the FY 2003 target. Although results
well exceeded target in FY 2003, we continue to project average resolution time reductions from the baseline of two
percent annually. Because this is a relatively new performance indicator, we will continue to carefully monitor the
performance trend and adjust out-year targets as appropriate. The Longshore program has instituted reforms focusing on
timeliness objectives, improving amicability in contested case proceedings, ensuring proper data collection and reporting,
and improving communications and outreach to injured workers, employers and insurers.

The Longshore and Harbor Workers’ Compensation Act provides medical benefits, compensation for lost-wages and
rehabilitation services for job-related injuries, diseases or death of private-sector workers in certain maritime and related
employment. Generally, benefits are paid directly from private funds by an authorized self-insured employer or through
an authorized insurance carrier. Cases meeting the requirements of the Longshore and Harbor Workers’ Compensation
statute are paid from the Fund comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In FY 2003, 6,045 workers (customers) received compensation benefits from the Fund.


LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations are part of the financial statements:

         -   The financial statements have been prepared to report the financial position and results of operations of the
             entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of a sovereign entity, that
             liabilities cannot be liquidated without the enactment of an appropriation, and that the payment of all
             liabilities other than for contracts can be abrogated by the sovereign entity.




                                                            I–2

OIG Report No. 22-04-007-04-432                                                                          Page 2.6
                                                   ANNUAL FINANCIAL STATEMENTS




                          U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                           Longshore and Harbor Workers’
                           Compensation Act Special Fund




                                     SECTION II

                   FINANCIAL STATEMENTS




                                  Fiscal Year 2003 and 2002
                                     Financial Statements

OIG Report No. 22-04-007-04-432                                     Page 2.7
                                                                   ANNUAL FINANCIAL STATEMENTS

                                     LONGSHORE AND HARBOR WORKERS’
                                      COMPENSATION ACT SPECIAL FUND

                                                BALANCE SHEETS
                                         As of September 30, 2003 and 2002


                                                                                  2003             2002

ASSETS

  Intragovernmental assets
    Funds with U.S. Treasury (Note 2)                                        $       55,916    $      628,842
    Investments (Note 3)                                                         64,348,093        63,052,050
       Total intragovernmental assets                                            64,404,009        63,680,892

  Accounts receivable, net of allowance (Note 4)                                  3,475,185         4,025,155

Total assets                                                                 $ 67,879,194      $ 67,706,047


LIABILITIES AND NET POSITION

Liabilities
  Accounts Payable                                                           $       13,188    $            -
  Accrued benefits payable                                                        2,172,113         2,051,582
  Deferred revenue                                                               30,885,374        30,896,061
  Other liabilities (Note 5)                                                     10,399,181         4,139,369

Total liabilities                                                                43,469,856        37,087,012

Net position
 Cumulative results of operations                                                24,409,338        30,619,035

Total liabilities and net position                                           $ 67,879,194      $ 67,706,047




The accompanying notes are an integral part of these statements.

                                                         II - 1

OIG Report No. 22-04-007-04-432                                                               Page 2.8
                                                                   ANNUAL FINANCIAL STATEMENTS

                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                          STATEMENTS OF NET COST
                                 For the Years Ended September 30, 2003 and 2002


                                                                           2003              2002

SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                              $ 121,355,505    $ 119,122,754
 Wage increase compensation, Section 10(h)                                 2,157,599        2,245,307
 Compensation payment for self-insurer in default, Section 18(b)           4,598,743        4,362,906
 Rehabilitation services, Section 39 (c)                                   2,611,956        2,830,417
 Rehabilitation maintenance, Section 8(g)                                      (400)              200
 Medical services, Section 7(e)                                                2,315            1,750
 Bankrupt self-insured employers                                           1,626,725          576,224

Net cost of operations                                                 $ 132,352,443    $ 129,139,558




The accompanying notes are an integral part of these statements.

                                                         II - 2

OIG Report No. 22-04-007-04-432                                                        Page 2.9
                                                                   ANNUAL FINANCIAL STATEMENTS

                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                STATEMENTS OF CHANGES IN NET POSITION
                                 For the Years Ended September 30, 2003 and 2002




                                                                           2003             2002

CUMULATIVE RESULTS OF OPERATIONS

Cumulative results of operations, beginning                            $ 30,619,035     $ 26,793,437

Budgetary financing sources:
 Transfers in/out without reimbursement (Note 6)                         (2,029,188)      (1,970,000)
 Non-exchange revenues:
   Interest                                                                 511,065           854,090
   Assessments                                                          127,660,869       134,081,066
 Total non-exchange revenues                                            128,171,934       134,935,156

Total financing sources                                                 126,142,746       132,965,156

  Net cost of operations                                               (132,352,443)    (129,139,558)

Net position, end of period                                            $ 24,409,338     $ 30,619,035




The accompanying notes are an integral part of these statements.

                                                         II - 3

OIG Report No. 22-04-007-04-432                                                        Page 2.10
                                                                   ANNUAL FINANCIAL STATEMENTS

                                      LONGSHORE AND HARBOR WORKERS’
                                       COMPENSATION ACT SPECIAL FUND

                                   STATEMENTS OF BUDGETARY RESOURCES
                                   For the Years Ended September 30, 2003 and 2002


                                                                            2003                2002

BUDGETARY RESOURCES (Note 7)

  Budgetary authority:
   Appropriations received                                              $   133,727,455   $ 136,438,282
  Unobligated balance:
   Beginning of period                                                       61,682,960        57,189,612

  Total budgetary resources                                             $   195,410,415   $ 193,627,894


STATUS OF BUDGETARY RESOURCES

  Obligations incurred (Note 7)
   Direct                                                               $   133,236,523   $ 131,944,934
  Unobligated balances available
   Other available                                                           62,173,892        61,682,960

  Total status of budgetary resources                                   $   195,410,415   $ 193,627,894


RELATIONSHIP OF OBLIGATIONS TO OUTLAYS (Note 7)

  Obligated balance, net, beginning                                     $     1,910,614   $     1,597,931
  Obligated balance, net, ending
   Accounts payable                                                           2,185,301         1,910,614
  Outlays:
   Disbursements                                                            132,961,836       131,632,250

  Net outlays                                                           $ 132,961,836      $ 131,632,250




The accompanying notes are an integral part of these statements.

                                                         II - 4

OIG Report No. 22-04-007-04-432                                                           Page 2.11
                                                                     ANNUAL FINANCIAL STATEMENTS

                                    LONGSHORE AND HARBOR WORKERS’
                                     COMPENSATION ACT SPECIAL FUND

                                         STATEMENTS OF FINANCING
                                 For the Years Ended September 30, 2003 and 2002




                                                                             2003             2002

RESOURCES USED TO FINANCE ACTIVITIES

Budgetary Resources Obligated
  Obligations incurred                                                   $ 133,236,523    $ 131,944,934
Other Resources
  Transfers, net                                                           (2,029,188)       (1,970,000)
Total resources used to finance activities                                131,207,335       129,974,934

COMPONENTS OF THE NET COST OF OPERATIONS
  THAT WILL NOT REQUIRE OR GENERATE
  RESOURCES IN THE CURRENT PERIOD
    Components requiring or generating resources in future periods
      Change in benefit and retirement liability                             (140,968)                 -
    Components not requiring or generating resources
      Benefit overpayments                                                  1,286,076         (835,376)
Total components of net cost of operations that will not
 require or generate resources in the current period                        1,145,108         (835,376)

Net cost of operations                                                   $ 132,352,443    $ 129,139,558




The accompanying notes are an integral part of these statements.

                                                         II – 5

OIG Report No. 22-04-007-04-432                                                          Page 2.12
                                                   ANNUAL FINANCIAL STATEMENTS




                          U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                           Longshore and Harbor Workers’
                            Compensation Act Special Fund




                                    SECTION III

                              NOTES TO THE
                   FINANCIAL STATEMENTS




                                  Fiscal Year 2003 and 2002
                                     Financial Statements

OIG Report No. 22-04-007-04-432                                     Page 2.13
                                                                      ANNUAL FINANCIAL STATEMENTS

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2003 and 2002


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). The
Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care payments
to employees disabled from injuries which occurred on the navigable waters of the United States, or in adjoining areas
used for loading, unloading, repairing, or building a vessel. The Fund also extends benefits to dependents if any injury
resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing and activities of the Longshore and Harbor Workers’ Compensation Act Special Fund
(Fund), in accordance with accounting principles generally accepted in the United States of America and the form
and content requirements of OMB Bulletin 01-09. These financial statements have been prepared from the books
and records of the Fund. These financial statements are not intended to present, and do not present, the full cost of
the Longshore and Harbor Workers’ Compensation Act Program (Longshore Program). In addition to the Fund
costs presented in these statements, the full cost of the Longshore Program would include certain direct costs of
ESA in the form of salaries and expenses for administration of the Longshore Program and allocated costs of ESA
and other DOL agencies incurred in support of the Longshore Program. The full cost of the Longshore Program is
included in the Consolidated Financial Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of
federal funds. These financial statements are different from the financial reports, also prepared for the Fund pursuant to
OMB directives, used to monitor the Fund’s use of budgetary resources.

C.       Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.



                                                          III - 1

OIG Report No. 22-04-007-04-432                                                                         Page 2.14
                                                                     ANNUAL FINANCIAL STATEMENTS

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2003 and 2002


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included
as benefit overpayments receivable are Fund benefit overpayments made to individuals who were determined ineligible
to receive benefits.

F.       Accrued Benefits Payable

The Longshore and Harbor Workers’ Compensation Act Special Fund provides compensation and medical benefits for
work related injuries to workers in certain maritime employment. The Fund recognizes a liability for disability benefits
payable to the extent of unpaid benefits applicable to the current period.

G.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been
deferred.

H.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers.
Assessments are recognized as non-exchange revenue when due. Included in revenues are recoveries of amounts
reassessed to carriers related to prior years. These reassessments primarily result from application of Agreed Upon
Procedures (AUP) on reported carrier data. Recoveries amounted to $862,943 during fiscal year ended September
30, 2003 and $984,000 during fiscal year ended September 30, 2002.

The Fund also receives interest on Fund investments and on Federal funds in the possession of non-Federal entities.




                                                         III - 2

OIG Report No. 22-04-007-04-432                                                                       Page 2.15
                                                                       ANNUAL FINANCIAL STATEMENTS

                                   LONGSHORE AND HARBOR WORKERS'
                                    COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2003 and 2002


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with the U.S. Treasury at September 30, 2003 and 2002 consisted of cash deposits of $55,916 and $628,842
respectively. These cash deposits at September 30, 2003 and 2002 included $293 and $12,462 respectively which are
being held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act. These funds
relate to the default of self-insured employers and are available for payment of compensation and medical benefits to
covered employees of the defaulted companies.


NOTE 3 - INVESTMENTS

                                                                       September 30, 2003
                                                                                                        Market
                                          Face Value               Discount         Net Value           Value
 Intragovernmental securities
    Marketable                            $ 64,438,000         $ (89,907)          $ 64,348,093      $ 64,348,093



                                                                       September 30, 2002
                                                                                                        Market
                                          Face Value               Discount         Net Value           Value
 Intragovernmental securities
    Marketable                            $ 63,244,000         $ (191,950)         $ 63,052,050      $ 63,052,050


Investments of $9,210,400 and $3,831,024 for 2003 and 2002 are being held as security by authority of Section 32 of the
Longshore and Harbor Workers' Compensation Act. These investments are available for payment of compensation and
medical benefits to covered employees of the defaulted companies. Investments at September 30, 2003 and 2002 consist
of short-term U.S. Treasury Bills and are stated at amortized cost which approximates market. Investments at September
30, 2003 bear interest rates varying from 0.90% to 0.99% compared to rates varying from 1.66% to 1.53% for 2002.
Interest rates on securities bought and sold during fiscal year 2003 ranged from 0.83% to 1.85% compared to 1.58% to
3.37% for fiscal year 2002.




                                                         III - 3

OIG Report No. 22-04-007-04-432                                                                     Page 2.16
                                                                    ANNUAL FINANCIAL STATEMENTS

                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2003 and 2002


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2003 and 2002 consisted of the following:

                                                                          2003                       2002
Entity assets
  Benefit overpayments                                                $ 1,270,447                 $ 2,219,784
  Assessments receivable                                                2,709,301                   1,947,123
  Less: allowance for doubtful accounts                                 (504,563)                   (141,752)

    Total accounts receivable, net                                   $ 3,475,185                  $ 4,025,155

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to claimants arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

Changes in the allowance for doubtful accounts during 2003 and 2002 consisted of the following:

                                                                  September 30, 2003
                                      Allowance         Write            Revenue                     Allowance
                                         9-30-02        Offs           Adjustment    Bad Debt           9-30-03
Entity assets
  Benefit overpayments               $ (44,396)     $     4,891      $           - $ (341,630)      $ (381,135)
  Assessment receivable                (97,356)       2,023,100        (2,049,172)          -         (123,428)
                                     $(141,752)     $ 2,027,991      $ (2,049,172) $ (341,630)      $ (504,563)


                                                                  September 30, 2002
                                      Allowance           Write          Revenue                     Allowance
                                         9-30-01           Offs        Adjustment    Bad Debt           9-30-02
Entity assets
  Benefit overpayments               $ (28,260)     $ (16,136)       $          -     $       -     $ (44,396)
  Assessment receivable               (170,018)         70,916              1,746             -        (97,356)
                                     $(198,278)     $ 54,780          $     1,746     $       -     $ (141,752)




                                                        III - 4

OIG Report No. 22-04-007-04-432                                                                     Page 2.17
                                                                       ANNUAL FINANCIAL STATEMENTS

                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2003 and 2002


NOTE 5 - OTHER LIABILITIES

Other liabilities at September 30, 2003 and 2002 consisted of the following current liabilities:

                                                                                       2003                     2002
Other liabilities
  Assessment overpayments by carriers                                             $ 1,188,488              $     295,883
  Defaulted employer liability
    Held in investments                                                               9,210,400                3,831,024
    Held in cash                                                                            293                   12,462
                                                                                      9,210,693                3,843,486

  Total other liabilities                                                         $ 10,399,181             $   4,139,369

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to funds and investments held by the Longshore Special Fund which are being held
as security by authority of Section 32 of the Act. These funds and investments are available for compensation and
medical benefits to covered employees of the defaulted companies. Management estimates that these funds and
investments held will not be sufficient to cover the future benefits associated with the covered employees.


NOTE 6 - RELATED PARTY TRANSACTIONS

The Fund reimburses the Office of Workers' Compensation Programs (OWCP) (a related entity within the Employment
Standards Administration) for rehabilitation services provided to eligible claimants and certain direct expenses associated
with administrative support of the Fund. Amounts paid to the OWCP were $2,029,188 in 2003 and $1,970,000 in 2002.


NOTE 7 - RECONCILIATION TO THE BUDGET

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the years ended September 30, 2003
and 2002 are shown below:

                                                                        September 30, 2003

                                                     Budgetary              Obligations
                                                     Resources               Incurred              Outlays
(Dollars in Millions)
Statement of Budgetary Resources                      $      195             $      133            $     133
Budget of the United States Government                $      195             $      133            $     133




                                                           III - 5

OIG Report No. 22-04-007-04-432                                                                         Page 2.18
                                                                     ANNUAL FINANCIAL STATEMENTS

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2003 and 2002


NOTE 7 - RECONCILIATION TO THE BUDGET – Continued

                                                                      September 30, 2002

                                                    Budgetary             Obligations
                                                    Resources              Incurred               Outlays
(Dollars in Millions)
Statement of Budgetary Resources                    $      194             $     132             $      132
Budget of the United States Government              $      194             $     132             $      132



NOTE 8 - CONTINGENCIES AND COMMITMENTS

In the opinion of the management of the Fund and its legal counsel, there is no pending or threatened litigation which has
a reasonable possibility of materially affecting the financial position or results of operations of the Fund.

Section 39(c)(2) of the Longshore and Harbor Workers' Compensation Act authorizes vocational rehabilitation of
disabled employees and Section 8(g) provides additional compensation to disabled employees while undergoing
rehabilitation training. Rehabilitation services paid from the Fund are mainly provided by private counselors and private
training facilities. The rehabilitation agreements are funded by future assessments from the insurance carriers and
self-insured employers. The amount of the outstanding rehabilitation agreements at September 30, 2003 is $4,448,695
compared to $4,600,000 for September 30, 2002.




                                                         III – 6

OIG Report No. 22-04-007-04-432                                                                        Page 2.19
